July 9, 2008

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

SUBJECT: Audit Report – Protection of Sensitive Equipment at Selected Postal
         Service Information Technology Facilities
         (Report Number IS-AR-08-013)

This report presents the results of our audit of sensitive equipment at selected
information technology (IT) facilities (Project Number 07BD001IS003). Our objective
was to determine whether controls were in place to ensure the Postal Service
adequately protected information technology equipment from accidental or intentional
loss or damage. Specifically, we reviewed the inventories for laptop and BlackBerry®
devices assigned to employees and contractors at six IT facilities to determine if
accountability controls adequately protected this equipment and any data stored on
these devices. We performed this review as part of the fiscal year (FY) 2007
information systems audit of general controls at the Postal Service’s Information
Technology and Accounting Service Centers (IT/ASCs). Click here to go to Appendix A
for additional information about this audit.

Conclusion

In most locations tested, the Postal Service had effective controls in place to ensure
their sensitive information technology physical resources were adequately protected
from accidental or intentional loss or damage. Specifically, we found controls were in
place for tracking inventories of sensitive computer equipment at five of the six sites
visited. However, management could strengthen accountability controls by ensuring
they make inventory staff aware of and follow all steps related to safeguarding the
inventory of information technology assets and any data stored on those devices from
accidental or intentional loss or damage. In addition, management could improve the
data integrity in the Xxxxx Xxxxxxxxx Xxxxxxxxxx Xxxxxx (XXXX) by periodically
reconciling the data.
Protection of Sensitive Equipment at Selected                                                              IS-AR-08-013
 Postal Service Information Technology Facilities


Laptop Computer Inventories

Out of our audit sample of 235 devices, we could not locate 301 of 107 laptops from
headquarters,2 thus, we projected an inability to locate 836 of 2,982 laptops from the
headquarters offices. Additionally, we were unable to locate three of 54 laptops from
the Xxxxxxx Information Technology Service Center (ITSC) and one laptop of 11 from
the Xxx Xxxxx IT/ASC. At the three remaining IT facilities, we located all laptops
identified in our sample. This occurred because inventory staff3 did not always follow,
or were not aware of, policies,4 procedures,5 and processes for documenting and
certifying inventory results and recording the information in XXXX.

We quantified the risk associated with 8366 missing headquarters laptops and the
potentially compromised laptop data. The total projected estimate associated with
these laptops was $1,901,900. We based this figure xx x xxxxxxxxxxx xxxx xx xxxxxx7
xxx xxxx xxxxxx, xxxxxxxx xxxxxxxxxx xx xxxxxxxx xxxxxx xx xxxx. Additionally, we
used a conservative estimate of 10 records on each laptop and the associated cost of a
potential data breach at $83 per record to calculate a potential cost of data disclosure of
$693,880. (Click here to go to Appendix C for details of the calculation.) These laptops
and potential data disclosure could affect customer trust in the Postal Service brand.
We will report $1,901,900 of non-monetary impact for physical assets at risk,
safeguarding data, and goodwill branding in our Semiannual Report to Congress. Click
here to go to Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Information Technology Operations, direct the
managers at the Xxxxx, Xxxxxxxxx; Xxx Xxxxx, Xxxxxxxxxx; Xx. Xxxxx, Xxxxxxxx;
Xxxxxx-Xxxxx, Xxxxxxxxxxxx; xxx Xxxxxxx, Xxxxx Xxxxxxxx Information Technology
facilities; and the Headquarters Computing Infrastructure Services to:

1. Ensure Material Accountability Officers and Assistants are aware of and follow all
   policies and procedures for inventory control of sensitive equipment including report
   certification by their functional managers.




1
  We completed our inventory work as of July 5, 2007, and 40 laptops were not located. Since that time,
headquarters staff performed additional research and as of June 10, 2008, located 10 of the laptops.
2
  The headquarters category within the XXXX includes the offices located at L’Enfant Plaza, the William F. Bolger
Center for Leadership Development located in Potomac, Maryland, offices located in Merrifield and Arlington,
Virginia, and headquarters staff located at field sites across the nation serving in a headquarters-related job function.
3
  Postal Service policy gives primary responsibility of physical inventory and reconciliation of sensitive property
records to the Material Accountability Officer and optional Material Accountability Assistant.
4
  Handbook AS-701, Material Management, June 2005 (updated with Postal Bulletin revisions through November 9,
2006), Chapter 5 – Asset Accountability and Chapter 6 – Asset Recovery, Redistribution, Recycling, and Disposal;
Handbook AS-805, Information Security, March 2002 (updated with Postal Bulletin revisions through November 23,
2006), Chapter 7 – Physical and Environmental Security.
5
  IT Facilities Inventory Processes & Procedures Document, Version 9, December 4, 2006.
6
  We did not include the four laptops we could not locate at the other IT locations in our projections because they
were not statistically significant.
7
  Xxx Xxxxxxx-Xxxxxxx XXXXX XX xxxxxxxx xxxxxxxx x xxxx xxxxx xx xxxxxx xxx xxxxxxxx xxxxxxxxx.

                                                            2
Protection of Sensitive Equipment at Selected                                                            IS-AR-08-013
 Postal Service Information Technology Facilities


BlackBerry Device Inventories

We sampled 208 of 1,909 BlackBerry devices assigned to employees and contractors at
the six IT facilities. We located all BlackBerry devices in our sample, verifying that the
Postal Service had effective controls in place to ensure management adequately
protected BlackBerry devices from accidental or intentional loss or damage.

Xxxxx Xxxxxxxxx Xxxxxxxxxx Xxxxxx Xxxx


xxxx did not always reflect the current custodian, location, or status of the Postal
Service’s sensitive laptop and BlackBerry device inventory. From a random sample of
these sensitive equipment records, we projected that 24 percent of the laptop and
almost 40 percent of the BlackBerry device records would contain at least one
discrepancy.8 Although mandated by Postal Service policies9 and procedures,10 some
inventory staff did not reconcile the physical inventories with XXXX. Additionally, the
automated interface between the databases feeding laptop and BlackBerry device data
to XXXX has transmitted incorrect historical data. During our search for these devices,
we identified cases where one or more of the 19 databases feeding XXXX contributed
to perpetuated data record errors and, in at least one instance, a manual override could
not correct the error. An accurate XXXX inventory helps ensure the ability to locate all
sensitive laptop and BlackBerry equipment. Click here to go to Appendix B for our
detailed analysis of this topic.

We recommend the Vice President, Information Technology Operations, direct the
managers at the Xxxxx, Xxxxxxxxx; Xxx Xxxxx, Xxxxxxxxxx; Xx. Xxxxx, Xxxxxxxx;
Xxxxxx-Xxxxx, Xxxxxxxxxxxx; xxx Xxxxxxx, Xxxxx Xxxxxxxx information technology
facilities; and the Headquarters Computing Infrastructure Services to:

2. Conduct quarterly comprehensive reconciliations of the Xxxxx Xxxxxxxxx
   Xxxxxxxxxx Xxxxxx to resolve discrepancies for sensitive equipment.

3. Develop a procedure to require individuals to semiannually validate and report
   inventory results for laptops, BlackBerry devices, or other sensitive equipment in
   their possession.

4. Establish a plan with milestones to correct data interface issues to promote data
   accuracy in the Xxxxx Xxxxxxxxx Xxxxxxxxxx Xxxxxx.




8
  We classified a record as a discrepancy when the actual custodian, equipment status (active vs. retired), or location
differed from the data element recorded in the XXXX..
9
  See footnote 4.
10
   See footnote 5.




                                                           3
Protection of Sensitive Equipment at Selected                                  IS-AR-08-013
 Postal Service Information Technology Facilities


Management’s Comments

Management agreed with all four recommendations. Regarding recommendation 1,
management stated Information Technology (IT) facility managers will review applicable
policies with responsible personnel each year. The managers will emphasize that the
actual custodian, equipment status, and equipment location must be accurate for
sensitive equipment. At individual facilities, responsible personnel will provide signed
verification that they reviewed, understood, and will comply with applicable policies. In
addition, each IT facility will audit a sampling of both the quarterly sensitive
reconciliation and semiannual individual sensitive equipment validation performed by
the responsible personnel to ensure compliance with applicable policies. Each IT
facility manager will provide report certification that the audit samples reviewed are in
compliance. Management will complete their corrective action by August 29, 2008.

For recommendation 2, management stated all IT facilities would conduct quarterly
reconciliations with XXXX starting by December 31, 2008, to resolve discrepancies for
sensitive equipment allocated to employees. Each quarterly review will include an
audited sample and the facility manager will certify that samples comply with
procedures.

In conjunction with recommendation 3, management will develop a process by
September 30, 2008, to require individuals to semiannually validate and report sensitive
equipment in their possession. They will complete the initial semiannual validation by
March 31, 2009. Management also stated that they have controls in place for
assignment of sensitive equipment and they plan to implement encryption on 4,600
laptops by the end of this fiscal year.

Regarding recommendation 4, management stated that enhanced tracking procedures
are in place to verify receipt of shipped equipment, report new equipment installations in
a weekly status report to upper management, and ensure the equipment remains active
on the network. Management stated that implementing recommendations 1-3 would
correct the manual or automated feeds causing some situations of incorrect data within
the XXXX. They also stated that responsible personnel will correct equipment status
information and ensure they enter cancellation requests into xXxxxxx for equipment no
longer needed. Finally, management will review current data feeds to the XXXX and
correct data interface issues by June 30, 2009.

We received additional information subsequent to the receipt of written comments.
Management provided a list of milestones and related completion dates and informed
us that they planned to complete all activities by June 30, 2009, rather than September
30, 2009, as originally reported. They also stated that they agreed with the non-
monetary impact described in the report. Click here to go to Appendix D to view
management’s comments.




                                                    4
Protection of Sensitive Equipment at Selected                               IS-AR-08-013
 Postal Service Information Technology Facilities


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and their corrective actions should
resolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Gary C. Rippie, Director,
Information Systems, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
for Revenue and Systems

Attachments

cc: Ross Philo
    Harold E. Stark
    Deborah J. Judy
    John P. Byrne
    Joseph G. Gabris
    Michael E Goldman
    Terrance P. Moran
    G. Dean Larrabee
    Emily M. Andrew
    Katherine S. Banks




                                                    5
Protection of Sensitive Equipment at Selected                                   IS-AR-08-013
 Postal Service Information Technology Facilities


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The XXXX is the official central repository for tracking all IT assets. The system
automates the collection of data about most IT assets such as workstations, laptops,
and servers. XXXX allows users to query the asset database using a variety of search
methods to review, analyze, and maintain networked and non-networked asset
inventory, as their assigned authority level allows. The major ongoing tasks of XXXX
are to:

    •   Provide a common, web-accessible view of all computing devices in the Postal
        Service.

    •   Ensure management, data owners, and device owners have the necessary
        information to make informed decisions.

    •   Ensure the consolidated information can interface with other systems, reducing
        data redundancy.

    •   Continue to develop methods to ensure data accuracy.

    •   Continue to discover data sources that will give a broader picture of the Postal
        Computing Environment.

XXXX categorizes both headquarters and headquarters-related offices in the
Washington, D.C. metropolitan area as “headquarters” for generating reports. Reports
generated for this category include inventory for offices located at L’Enfant Plaza, the
Virginia offices of Merrifield and Arlington, and the William F. Bolger Center for
Leadership Development in Potomac, Maryland. Additionally, reports include inventory
for Postal Service staff assigned to headquarters-related job functions at numerous field
sites across the nation.

XXXX receives automated data feeds from 19 databases and a number of manual
sources to assist in maintaining an accurate inventory of workstation and portable
equipment, including laptop computers and BlackBerry devices. The chart below
depicts those automated and manual sources.




                                                    6
Protection of Sensitive Equipment at Selected             IS-AR-08-013
 Postal Service Information Technology Facilities




                                               Redacted




                                               Redacted




                                                    7
Protection of Sensitive Equipment at Selected                                                IS-AR-08-013
 Postal Service Information Technology Facilities



In July 2006, the Postal Service began an initiative in response to a presidential
directive to improve data security related to breaches of sensitive information. To
support this effort, the IT Corporate Information Security Office (CISO) and the Privacy
Office jointly developed user procedures for reporting equipment loss and security
breaches of Postal Service computing equipment, including laptop computers,
BlackBerry devices, and other portable equipment. The Privacy Office included factual
case studies in its online privacy training program, focusing on specific principles and a
variety of data breaches that impacted well-known companies. Both organizations also
issued a series of online articles in the USPS News Link beginning in April 2007,
emphasizing mobile device security, including encrypting sensitive data. Additionally,
the CISO placed a policy on its new IT website11 requiring that all laptops implement
hard disk encryption.

After completion of our fieldwork, the reporting structure changed for Information
Technology. Previously, Information Technology reported to the Vice President, Chief
Technology Officer, who reported to Executive Vice President, Chief Financial Officer.
As of February 25, 2008, Information Technology now reports through the Executive
Vice President, Chief Information Officer, to the Postmaster General.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether controls were in place to ensure the Postal
Service adequately protected sensitive Postal Service information technology
equipment from accidental or intentional loss or damage. Specifically, we reviewed the
inventories for laptop and BlackBerry devices assigned to employees and contractors at
six IT facilities to determine if accountability controls adequately protected this
equipment and any data stored on these devices. We performed this review as part of
the FY 2007 information systems audit of general controls at the Postal Service’s
IT/ASCs.

We limited the scope of our review to a stratified sample of laptops and BlackBerry
devices identified in XXXX as located at the Xxxxx, Xxxxxxxxx; Xxx Xxxxx, Xxxxxxxxxx;
xxx Xx. Xxxxx, Xxxxxxxx IT/ASCs; the ITSC in Xxxxxxx, Xxxxx Xxxxxxxx; Postal
Service Headquarters in Washington, D.C.; and the Integrated Business Systems
Service Center in Xxxxxx-Xxxxx, Xxxxxxxxxxxx.

To meet our objective, we obtained inventory data for laptops and BlackBerry devices
from the XXXX database for the sites in our sample. We used the “Custom Query”
report in XXXX to identify the universe of laptops and BlackBerry devices. We used
manual and automated techniques to separate the laptop records from the other types
of computer equipment records. We worked with inventory support staff for XXXX at
the Xxxxxxx ITSC to confirm that we had properly selected XXXX records for sampling.
We also interviewed inventory staff to determine the process they used to address

11
  Xxx xxx XX xxxxxxx xx xxxxxxx xx <xxxx:xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx>. Xxxxxxxxx XX xxxxxxxxxxx
xxxx xxxxxxx xx xxxxx xxxx.

                                                    8
Protection of Sensitive Equipment at Selected                                                       IS-AR-08-013
 Postal Service Information Technology Facilities


damaged laptops. Specifically, we drew a statistically valid stratified random sample for
each location. The audit universe consisted of 4,139 laptops and 1,909 BlackBerry
devices assigned to the headquarters, Xxxxxxx, Xxxxx, Xxx Xxxxx, Xx. Xxxxx, xxx
Xxxxxx-Xxxxx IT facilities. The audit team obtained the universe information from the
January 2007 XXXX database.

Using the sample results, we projected the number of laptops that could not be located
and the number of laptop and BlackBerry devices that were located but had
discrepancies associated with the XXXX record. We classified a record as a
discrepancy when the actual custodian, equipment status (active versus retired), or
location differed from the data element recorded in XXXX. Additionally, we reviewed
documents regarding physical security policies and practices and interviewed key
Postal Service managers about current inventory practices.

We conducted this performance audit from January through September 2007 and
March through July 200812 in accordance with generally accepted government auditing
standards and included such tests of internal controls as we considered necessary
under the circumstances. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. Even though some data in our sample records were incomplete or
inaccurate, XXXX is the only comprehensive database available for the IT facilities that
we visited; therefore, we found this system sufficiently reliable for selecting our samples.
We discussed our observations and conclusions with management officials during the
audit and on June 5, 2008, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

In July 2005, the U.S. Postal Service Office of Inspector General reported13 two issues
related to managing sensitive equipment. The Xxx Xxxxx xxx Xx. Xxxxx IT/ASCs relied
on local procedures to manage capital and sensitive equipment, which were
inconsistent with corporate-wide policy. Additionally, some capital and sensitive
equipment either could not be located, had been moved, or was improperly documented
in the locally managed equipment databases. We recommended that managers at the
Xxxxx, Xxx Xxxxx, xxx Xx. Xxxxx data centers complete local implementation of XXXX
within 90 days of report issuance. Management agreed with the recommendation and
implemented XXXX at all three sites in December 2005.




12
  We did not work on this audit from October 2007 through February 2008 due to the unavailability of resources.
13
  Physical Security Controls at the Xxxxx, Xxxxxxxxx; Xxx Xxxxx, Xxxxxxxxxx; xxx Xx. Xxxxx, Xxxxxxxx Information
Technology and Accounting Service Centers (Report Number IS-AR-05-012, dated July 26, 2005).

                                                        9
Protection of Sensitive Equipment at Selected                                                           IS-AR-08-013
 Postal Service Information Technology Facilities


                                 APPENDIX B: DETAILED ANALYSIS

Laptop Computer Inventories

Based on a random sample of laptop computer records from XXXX, we could not locate
30 laptops14 from headquarters, three from the Xxxxxxx ITSC, and one from the Xxx
Xxxxx IT/ASC. Using these tests, we calculated the overall results displayed in Table 1.
Based on our sampling, we projected an inability to locate 836 laptops from the
headquarters offices. Using a replacement cost of xxxxxx xxxx xxx xxx xxx xxxxxxx, xx
xxxxxxxxx x xxx-xxxxxxxx xxxxxx xx xxxxxxxxxx15 for physical assets at risk.
Additionally, the non-monetary impact associated with cost of a potential data breach
conservatively computed to $693,880 for the 836 laptops. Click here to go to Appendix
C for details of our calculation for the non-monetary impact associated with potential
data breaches.

                      Table 1: Results of Laptop Equipment Inventory Review
                                           Statistical                     Projected
                                            Sample         Items Not       Items Not        Percent of Not
          Location          Universe          Size           Found           Found             Found
    Headquarters             2,982            107              30               836            28.0
    All Other Sites          1,157            128               4(1)              36            3.1(1)
    Total                    4,139            235              34               872            21.1(2)
1
  The four laptops we could not locate at the other IT facilities were not statistically significant.
2
  We based the totals for projected items not found and percent not found on the overall point estimate of the
statistical sample.

Inventory staff16 at five of the six IT facilities all confirmed they were using a common
set of procedures,17 which included using PS Form 7340-B, Property Transfer Request
Worksheet; PS Form 2880, Physical Inventory Certification/Adjustments; and PS Form
969, Material Recycling and Disposal, for managing inventory for sensitive equipment.

This situation occurred at headquarters because inventory staff did not always follow, or
were not always aware of, policies,18 procedures,19 and processes for accurately
recording key data such as custodian and location; sending or retaining documentation
regarding disposal of computer laptops; and reconciling the results of the physical
inventories of laptop equipment with XXXX. Additionally, the functional manager in
charge of the inventory staff had not certified the correctness of inventories performed.

During the review, we also confirmed the Postal Service did not have an enterprise-wide
solution implemented to encrypt laptop computers during our audit fieldwork period of
January through September 2007. Therefore, there is a potential that sensitive data
contained on laptops we could not locate is vulnerable to data breach.
14
   We attempted to identify the job functions of the last known custodians for the laptops we could not locate. These
included managers, miscellaneous staff positions, and several individuals who are no longer with the Postal Service.
15
   Xx xxxxxxxxxx xxx xxxxxxx xx xxxxxx xxxx xxx x xxxxx xx xxxxxxxxxx (xxx xxxxxxxxxx xx xxxxx).
16
   See footnote 3.
17
   See footnote 5.
18
   See footnote 4.
19
   See footnote 5.

                                                          10
Protection of Sensitive Equipment at Selected                                                        IS-AR-08-013
 Postal Service Information Technology Facilities



Corrective Actions Taken

Management has begun a project designed to enhance laptop accountability. The
Laptop/Mobile Media Project:20

•   Requires the employee to complete a handwritten PS Form 1357-D, Data
    Accountability, and include serial number, make or model, and manufacturer.

•   Requires an Executive Administrative Service or Postal Career Executive Service
    manager’s signature.

•   Makes the employee personally responsible for the equipment and acknowledges
    the employee will abide by security practices, including travel procedures, using
    encryption technology and procedures to report lost or stolen equipment.

•   Requires the employee to request access in the xXxxxxx test environment, including
    a step where the user uploads an automated copy of the signed document.

Additionally, Corporate IT began implementing their encryption program, which will
mitigate the risk associated with sensitive data stored on equipment. They will transmit
encryption software directly to compatible laptops using the Systems Management
Server system. Management plans to implement encryption on approximately 4,600
laptops by the end of the fiscal year.

Xxxxx xxxxxxxxx Xxxxxxxxxx Xxxxxx Xxxx

XXXX data did not always reflect the current custodian, location, or status of the Postal
Service’s sensitive laptop and BlackBerry device inventory. From a random sample of
laptops and BlackBerry devices, we projected that 24 percent of the laptop and 40
percent of the BlackBerry records would contain at least one discrepancy.21 We listed
overall results in the tables below. We also projected that 20.6 percent of the laptop
and 43.9 percent of the BlackBerry records for headquarters and 32 percent of the
laptop and 22.5 percent of the BlackBerry records for all other IT/ASC sites would have
at least one discrepancy in Xxxx.

As demonstrated in Table 2, based on our projections, 24 percent of the laptop records
(984 of 4,139) would contain at least one discrepancy.




20
   The project began April 25, 2008, at headquarters and a limited number of field groups, but management has not
established a date when all users will follow these new procedures.
21
   See footnote 8.

                                                        11
Protection of Sensitive Equipment at Selected                                                  IS-AR-08-013
 Postal Service Information Technology Facilities


                     Table 2: Results of XXXX Data Review for Laptops
                                     Statistical     Number of         Projected         Percentage of
     Location        Universe       Sample Size    Record Errors Record Errors           Record Errors
  Headquarters          2,982          107              22                 613                20.6
  All Other Sites       1,157          128              41                 371                32.0
  Total                 4,139          235              63                 984                23.8(1)
1
  We based the totals for projected items not found and percentage of records in error on the overall point
estimate of the statistical sample.

As demonstrated in Table 3, based on our projections, almost 40 percent of BlackBerry
records (754 of 1,909) would contain at least one discrepancy.

             Table 3: Results of XXXX Data Review for BlackBerry Devices
                                     Statistical     Number of         Projected         Percentage of
     Location        Universe       Sample Size    Record Errors Record Errors           Record Errors
  Headquarters          1,518            57             25                 666                43.9
  All Other Sites         391          151              34                  88                22.5
  Total                 1,909          208              59                 754                39.5(1)
1
  We based the totals for projected items not found and percentage of records in error on the overall point
estimate of the statistical sample.

During our search for these devices, we identified cases where one or more of the 19
databases feeding XXXX contributed to or perpetuated data record errors and, in at
least one instance, a manual override could not correct the error. For example, during
our review of the sensitive equipment inventory at the Xxx Xxxxx IT/ASC, neither we nor
the inventory staff could locate one laptop. We identified automated and manual feeds
that affected data elements of custodian, status, or location.22 The inventory staff
confirmed that all three data elements for the laptop record were incorrect. Since we
could not locate the laptop, the inventory staff initiated procedures to submit a
“Lost/Theft” report and PS Form 2880, Physical Inventory Certification - Adjustments.

While we confirmed the existence of a collection of headquarters laptops, we had to rely
on a fragmented process involving the equipment’s “Configuration” and “Last User
Logon ID” in XXXX. With these data elements and a discussion with a network systems
analyst, we determined five laptops did not belong to a permanent custodian but to
users training at the William F. Bolger Center for Leadership Development. By
identifying these laptops as associated with the Bolger Center, it would make future
inventory efforts more efficient and alleviate concerns that they were lost or stolen. In
another case, we confirmed the existence of a laptop, but only after going through a
lengthy process to ascertain that XXXX had duplicate records for the laptop. We
determined that a manual override in XXXX would not correct the problem until repair




22
  Xxxxx xxxxxxxxx xxxxx xxxx xxxx xxx Xxxxxxxxx® Xxxxxxx Xxxxxxxxxx Xxxxxx xxxxxxxxxxxxxx xxxxxxxx, Xxxxxx
Xxxxxxxxx, xxx xxx Xxxxxxxxxx Xxxxxxxx. Xxx xxxxxxxx xxxxxx xx XXXX xxxx “Xxxxxxxxx/Xxxx,” “Xxxx Xxxx Xxxxx
XX,” “Xxxxxx,” “Xxxxxxx x (Xxxxxx),” “Xxxxxxxx Xxxx,” xxx “Xxxxxxxx Xxxxxxxx XX.”

                                                    12
Protection of Sensitive Equipment at Selected                                                          IS-AR-08-013
 Postal Service Information Technology Facilities


technicians ran a utility disk on the laptop’s Basic Input/Output System (BIOS)23 to
recognize a new hard drive they had installed.

Corrective Actions Taken

During our audit, management also made changes to correct problems occurring with
two XXXX interfaces. During February 2008, management completed changes, which
corrected a problem with the interface between XXXX and the PS Form 969, Material
Recycling and Disposal, web application (969 system). The migration of the 969
system from older to newer computer equipment caused the interface between the
systems to fail. The corrected interface allows the data entered in the 969 system
interface to reconcile with XXXX data. Additionally, from November 19 to December 24,
2007, management reviewed and corrected an automated interface between XXXX and
the BlackBerry Enterprise Server. This effort fixed incorrectly recorded BlackBerry
device data in XXXX.




23
   BIOS refers to the firmware code run by an International Business Machines Personal Computer (PC) when first
powered on. The primary function of the BIOS is to identify and initiate component hardware (such as hard disk,
floppy, and optical disk drives). This is to prepare the machine so other software programs stored on various media
can load, execute, and assume control of the PC.

                                                         13
Protection of Sensitive Equipment at Selected                                                           IS-AR-08-013
 Postal Service Information Technology Facilities


         APPENDIX C: ESTIMATED COST OF A SENSITIVE DATA COMPROMISE

The following describes the methodology we used to calculate non-monetary impact for
safeguarding assets associated with potential data breaches involving 836 laptops.

We used the Ponemon Institute’s November 2007 study24 as a benchmark to identify
the cost of a data breach. The Ponemon Institute classified the total cost of $198 per
record using detection and escalation costs of $9, notification costs of $15, ex-post
response costs of $46, and lost business costs of $128, as displayed in the table below.

                                                      Costs per Record as                      Amount
                 Cost Category                       Reported by Ponemon                   Applicable to the
                                                           Institute                        Postal Service
         Detection and Escalation
     Internal Investigation, Legal, Audit, and
                                                                    $9                                $9
     Consulting
         Notification
     Letters, Emails, Telephone, Published
                                                                     15                                15
     Media, and Website
         Ex-Post Response
     Mail, Email, Telephone (to Internal Call
     Center), Telephone (to Outsourced Call
     Center), Legal Defense, Criminal
                                                                     46                                46
     Investigations (forensics), Public or
     Investor Relations, Free or Discounted
     Services
         Lost Business
     Cost of Turnover, Cost of Fewer New
                                                                    128                                1325
     Customers

                                         Total                    $198                               $83

Xxx Xxxxxx Xxxxxxx xxxxxxxx xxxxx xx xxxxx xxxxxx xx xxxxxxx xxxxxxxxx xxxx
xxxxxxxxx xxxx xxxxxxx Xxxxxxxx xxxx, xxx xxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxx xxx
xxxxxxxxxx xxxxxxxxxxxx xxxxxxxxxxx. The number of records stored on the seven
stolen computers ranged from four to 40,000, so we based our calculation on a
conservative 10 records per laptop. We calculated a total non-monetary impact of
$693,880 based on $83.00 per record for the projected 836 laptops (10 records each)
which we could not locate at the headquarters offices.



24
   Ponemon Institute, LLC, 2007 Annual Study: U.S. Cost of a Data Breach, dated November 2007, page 9.
25
   The $128 estimated cost per record listed by the Ponemon Institute in the Lost Business category does not
represent a reasonable estimate for the Postal Service. We believe Postal Service customers have few alternatives
in the market for delivery of letters and packages at comparable, competitive rates so we estimate the actual loss of
business would be much less. Therefore, we elected to reduce the lost business estimate of $128 by 90 percent
(from $128 to $13).

                                                          14
Protection of Sensitive Equipment at Selected               IS-AR-08-013
 Postal Service Information Technology Facilities


                        APPENDIX D. MANAGEMENT’S COMMENTS




                                                    15
Protection of Sensitive Equipment at Selected            IS-AR-08-013
 Postal Service Information Technology Facilities




                                                    16
Protection of Sensitive Equipment at Selected            IS-AR-08-013
 Postal Service Information Technology Facilities




                                                    17
Protection of Sensitive Equipment at Selected            IS-AR-08-013
 Postal Service Information Technology Facilities




                                                    18
